HHS/OIG, Audit -"Audit of Iowa's Adult Rehabilitation Services Program,"(A-07-03-03041)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Iowa's Adult Rehabilitation Services Program," (A-07-03-03041)
March 28, 2005
Complete
Text of Report is available in PDF format (2.65 mb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether the States claims for adult
rehabilitation services met Federal and State Medicaid reimbursement requirements.  Of the 100
adult rehabilitation services claimed in our sample, 65 were unallowable because documentation was
missing or inadequate, services were nonrehabilitative, a conflict of interest existed because the
provider both authorized and rendered the services, and/or no services were provided or the beneficiaries
were not present.  These errors occurred because the State lacked adequate internal controls over
the adult rehabilitation services program to ensure that services claimed for Medicaid reimbursement
met applicable requirements.  We estimated that $6,244,154 in Federal funds that the State claimed
for Federal fiscal year 2002 was unallowable.  We recommended that the State refund the $6,244,154
to the Federal Government and strengthen policies and procedures to ensure that services claimed for
Medicaid reimbursement are directed exclusively to the beneficiarys rehabilitative needs and meet
other Federal and State requirements.  The State generally concurred, agreeing overall with 59
of the 65 claims found in error.